No.

IN THE

SUPREME COURT OF THE UNITED STATES
IN RE MONTANO, Petitioner.

PROOF OF SERVICE
I, Mario Allan Montano, do swear or declare that on this date, November 14, 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS, PETITION FOR WRIT OF MANDAMUS, APPENDIX,
TFIIS PROOF OF SERVICE on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Chief Justice Bridget M. McCormack, Michigan Supreme Court, Michigan Hall of Justice.
925 W. Ottawa Street, Lansing, MI 48915.
Department of the Attorney General, Civil Litigation, Employment & Elections Division,
G. Mennen Williams Building. 525 W. Ottawa Street, Lansing, MI 48915.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 14, 2020.

Mario Allan Montano
Petitioner

